V T-

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc: leader Mortgage, Et.al. 05/02/2021
'4\

No.
Lt Case : 6:05-cv-1806; and 6:18-cv-00l|

IN THE
SUPREME COURT OF THETJNITED STATE
r?

■ ~

Supreerne c

MAY 1 ;
' 1 202} =

t-

SSce'5
Renee Denise Bell -Petitioner,

:

Pro-Se.
vs.

Florida Highway Patrol/Larry Costanzo Et.al.
US Bank National Association Successor By Merger/Leader Mortgage
US Bancorp/Oaks at Powers Park HOA/Et.al.
Respondent (s).
ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS
For the
ELEVENTH CIRCUIT
Name of Court That Last Ruled on Merits of Your Case
PETITION FOR WRIT OF CERTIORARI

Renee Denise Bell / S/.
PO Box 362
Winter Park, F1.32790
5/2/202M)
/
f

0

1

received
MAY 1 1 2021

t.

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

QUESTIONS PRESENTED
1.
~ Should a Mandated order issued by a United StatesrAppeals Court
[Specifically, the Hon. Eleventh Circuit Court of Appeals] be struck.down
by a decision of a United States District Court-specifically-U.S. District Court
the Middle District-Florida, that it did-not agree with the mandated decision.
T*

Henceforth, subjecting a plaintiff, to consecutive appealsTo reverse, arid by that
very same conduct of the District Court-the longevity of those appeals-bring the
civil case to the door of the Statue of Limitations. Is this the Justice-and Judicial
system that the United States represent. Further, should this type conduct be
tolerated by the United States District Court-Middle District FI. in removing access
to the Courts for indigent individuals. [Those that are not represented-or cannot afford counsel. Furthermore, would it be considered violation of a Civil Liberty of
the US Constitution, being that one of the five key-civil liberties is “the right to
petition the government for redress of grievances [ Wherefore, why would the
appellant, be denied this privilege]. [2] Did the District Court, abuse discretion in
holding case from progress up near Statute of Limitations? though case is timely
filed.

i.

j

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

V

LIST OF PARTIES

*

[ ] All parties appear in the caption of the case on the cover page.

[ X ] All parties DO NOT appear'in the caption of the case on the cover page.
A-list of all parties to the proceeding in the Court whose judgement is
the subject of'this petition is as.follows.
'

'

ET-AL:
1. Larry Costanzo.
2. Cyrus Brown
3. Oaks at Powers Park-Homeowner-Association/Marilyn Vance.

RELATED CASES
Renee Denise Bell v.
Case No: 18-12956 Florida Highway Patrol/Larry Costanzo, Et.al.
United States Court of Appeal/Eleventh Circuit.
Judgment entered.
Case No: 18-13227 “ Above-same as 18-12956”
Case No: 19-10568 Renee Denise Bell v.
US Bank National Association Successor By Merger/
Leader Mortgage. [US Bancorp] Et.alOaks At Powers Park.
United States Court of Appeal/Eleventh Circuit.

n.

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

TABLE OF CONTENTS

l

OPINIONS BELOW
JURISDICTION

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED..
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A : Decision United States Court of Appeal/ Eleventh Circuit.
APPENDIX B : Decision United States District CourtMiddle District of Florida
APPENDIX C : Recommendation of United States Magistrate Judge
APPENDIX D : Order United States Court of Appeals /Eleventh Circuit
Denial timely Petition for Rehearing.

m.

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES

Barren v. Hamilton, 152 F. 3d 1193, 1194 (1998).
Bell Atlantic Corn. v.-Twombly, 550 U.S. 544.(2007)
Bivens v. Six Unknown Fed., Narcotics Agents 403-US 388 1971.
Bounds v Smith, 430_U.S. .817 (1977). Bounds, supra 2'
J

.*

Pg.29
Pg.
Pg- 12,22
Pg. 15

Califano v. Sanders, 430 US.99, 109 (1977)!":: :. /
pg. 11
Chureh-oUSeientology of Cal, v. United States, 506TJS 9,13H 992);
Creed Taylor v. CBS Inc. 718 F. Supp. 1171, 1177(1989).
Cook, Perkins, & Liehe, Inc, v. Northern Cal. Collection Serv., Inc., 911 F.2d
242 (1990).
...................
Conley v. Gibson, 355 U.S. 41 (1957)
pgPg-20
Cottrell v. Newspaper Agency Corp. 590 F.2d 836, 838-839(1979)
Dickey v. Florida, 398 U.S. at 51,52 (1970).
Pg-14
Doe v. United States, 58 F.3d 494,497 (1995)
Edelman v. Jordan 415 U.S. 651 1974
Pg-17
Estelle v Gamble 429 US 97 1976,
Pg-12
Ex Parte Young
Pg-18
Falhaum v. Pomerantz, 9039, 9049, (2001).
Frank v Xerox Corp. 347 F.3d 130,136, (2003).
Pg- 10
Franklin v. Murphy 745 F.2d 1221 1984
Pg-30
Goldberg v. Kelly, 397 U.S. 254 (1970).
Hachamovitch v. DeBoumo, 159 F. 3d 687, 695, (1998).
PgHope v. Perales, 985 F.2d 985 (1991)
Pg-22
Pg. 10
Klemm v. Astrue, 543 F.3d 1144 (2008).
Martinez v. Orr, 738 F.2d 1107,1112 (1984)
Marzetti v. Williams, 1 B. & Ad. 415, 420, 109 Eng. Rep. 842,844 (K.B.1830
Matthews v. Eldridge, 424 US 319,333, (1976).
PgU9
Miller v. Marsh, 766 F.2d 490,493(1985)
PgMonroe v Pape, 365 US 167, 173-74 (1961)
PgMorrison v. Amway Corp., 323 F. 3d 920,924 n.5 (2003)
Pg.
Pg-20
Rolen v. Barnhart, 273 F. 3d 1189, 1191,(2001).
Pg-33
Ross v. Moffitt, 615-617, (1974).
IV.

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

TABLE OF AUTHORITIES CITED
Screws v. United States, 325 U.S. 91 Pp. 365 U.S. 183-187
Snokeo, Inc, v. Robins. 578 US 330, 338, (2016).
Swain v, Alabama, 380 US 203,204 (1965)

:

pg-

pg.n

•Thomas v. Sec:v of Dept, of Veteran Affairs, 358 Fed. Appx. 115,116 (2009). Pg.
Thomas v. Chattahooche^JudiciaLCircuit, 14-10265,2014 WL 4414681 (2014).
7 Thompson v. Schweiker, 665 F.2d 936, 941
3 r

United States v. Classic, 313 U.S. 299

.......... ; _

United States v. Gholston, 133 F. Supp. 2d 1304,1306, (2000).

pg.;
pg.

Uzuegbunam v. Preczewski, 8,11 (2021)— Pods, v. Evans, 15 C.B.N.S. 621, 143
Eng. Rep. 929 (C.P. 1864).
Pg.llWilkerson v. Siegfried, Insurance Agency, Inc., 683 F.2d 344,348 (1982). Pg. 20
Wilson v. Seiter U.S. 294 1991
Pg-12

STATUTES AND RULES
28 U.S.C. §1254(1).
18U.S.C. §242
Title 18 § 372

OTHER
94 Stat. 2369.
12(b)6.
Jnformal-Pauperis
Mandate:Doc:69

v.

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW ...
[ X ] For cases from Federal Courts
The opinion of theXJnited States Court of Appeal appears at Appendix A_ to
the petition and is............................
~
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States District Court appears at Appendix B_ to
the Petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
[ ] cases from State courts:
The opinion of the highest state court to review the merits appear at
to the petition and is
Appendix
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
Court
The opinion of the _
to the petition and is
appears at Appendix
[ ] reported at_____
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

JURISDICTION
[rX ] For cases from Federal Courts:
The date on which the United States Court of Appeals decided my case
was
■ [ ] No petition for rehearing- was-timely, filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: 02/19/2021
, and a
Copy of the Order denying rehearing appears at Appendix C
03/2021
[X] An extension of time to file the Petition for a writ of certiorari was granted to
date on
date
and including___
in Application No:
A
The Jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).

| ] For cases from State courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______________
[ ] A timely Petition for rehearing was therefore denied on the following date:
__________________ , and a copy of the Order denying rehearing appears at
Appendix
[ ] An extension of time to file the Petition for a writ of certiorari was granted to
and including___
date on
Date
in Application No.
A
150-DAYS FOR ALL PETITIONS DUE COVID-19 *****
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257 (a).
2.

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1.

CONSTITUTIONALUS Constitution-Article III-Authorizes the Supreme Court "to decide all cases
■ arising under Federal-Law, and in disputes involving states.
Amendment-1

Amendment-8/13.........
Amendment-14
Amendment-5
Supremacy Clause-Article VI-Para.(2)-US Const.
Magna Carta
2.

A STATUTORY PROVISIONS:
28 U.S.C. §1254(1).
Title VIIT Chapter-95- FL. STATUTES
1.95.051
2. 95.051-(a)
3. 95.051 -(c)).
4. 95.051

3.

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

INTRODUCTION
STATEMENT OF THE CASE
******

This case presents important questions concerning claims of workplace “Sexual
“ Harassment”:brought under Title VII of the Civil Rights Act of 1964, 78 Stat. 253,
___ as amended, 42 U.S.G: § 2000e et. seq. :
•• •. . . ■
•
:ccordlrig to the Equal Employment Opportunity Commission [EEOC ] there
are two types of Sexual Harassment claims. (A). “Ouidrpro quo” and (B). “Hostile -Work -Environment.
“Quid pro quo” - simply means-“this for that” involves expressed or implied
demands for sexual favors in exchange for some benefit.
“Hostile -Work -Environment.” - simply means- arises when a speech or
conduct is so severe and perversive it creates an intimidating and demeaning
environment or situation that negatively affects a persons job performance.
This case : (B) Hostile -Work -Environment:
Appellants claims, are intertwine both federal, and state. The Hostile WorkEnvironment claims have-not-been-address by the Court. The Supreme Court,
explain: that Hostile Work-Environment Claims are different in kind from discreet
acts. The key nature involves repeated conduct. Frank v Xerox Cory. 347 F.3d
130,136, (2003). The Statute of Limitations, are different with those claims. This
case raise argument regarding Statute limitations. Errors, began when District
Court fail to consider the record, this would invoke the Courts subject-matter
jurisdiction. The District Court dismiss- and affirm the magistrates R& R. [The
magistrate fail to review record when decision is given (a). Objections are file. (b).
Notice is not provided that Court- case number change which delay filings (C)).
Appellant-is not notified on 12(b)6 Motion- file by [FELP] -that caveat of 12(b)6
require-(d). Notice by the magistrate-is not receive.(l). Magistrate un-inform of
record fail to consider case that is [post-appeal]- and that Complaint, indicating a
new case is Pro-Se’ error]. Further, leave to amend, should have been providedprior- dismissal of complaint-and case. The case is fourteen years on District
Court-docket, removal-only to- appeal- premise on dismissal of a mandate. In this
case, the [report-recommendation] relied upon matters outside the pleadings, base
on FHP-allegations. Klemm v. Astrue, 543 F.3d 1144 (2008). Thompson v.
Schweiker, 665 F.2d 936, 941. Further: is argument on Res-judicata-res judicata
although-this will not bar a second suit base on independent contractual breach, or
4
when the second claims are a continuing wrong.

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

I.
BASIS-FOR- INVOKING JURISDICTION OF THE COURT
Standing: To establish Article III standing, the Constitution require a plaintiff to
identify an inj ury in factThat _is__fair_lyjtraceable.to. the challenged conduct and to
seek a remedy likely to redress that injury. Svokeo, Inc, v. Robins, 578 US 330,
■ :338;(201'6)rThis case is complex: TPART-Al of the dispute is whether Florida
-■Statute-Limitations, bar state _claims-_Under.§ 1983 ref. Doc:14. On-FHP-12(b)6
" _ Motion/for dismissal and grounds for appeal. {Although-, state claims originate
Under Title Vn-CRA-1964-Sec. §.$"2000e-2;2000e-3 EEQC- Release- to- District
Court-rbv Right-to-Suit-Letters! Moreover, is §-§§§§1981,1983^985,1986, on
state claim intertwine with [XiV-Amend-issues]. FHP- argue that Res-Judicata,
and/or- Collateral Estopple- should bar -Constitutional obligation though case
_ timely_file-but longevity in Court, bring near statutory limit The District Court
delay-progress-base on decision not to honor-favorable Mandate. The case timely
file-before any statutory requirement. However, faces continuous denial to courtaccess. fMandate issue by U.S. Court Appeal/Eleventh Cir. [Doc:69] April 15
2009-Case: 6:05-cv-1806. The two tribunal-Cases that are-one in same 6:18-cv00193, and 6:05-cv-1806. [PART-B1 of dispute is whether the remedy appellant
sought-Punitive, Monetary, and Compensatory/Treble damage, can redress the
completed Constitutional- violations that appellant demonstrate occur when a FI.
Highway Patrol official [Costanzol-assault and injured-appellant. 911-ER respond
and from this FHP-call-embarrassment-Therefore, [FHP] retaliate by termination.
The conduct violate Whistle-blower protection, and the Fourteenth Amend., Equal
Protection that [FHP] terminate in terms and conditions of employment, because of
a [lawful-act] by employee. Appellant, informed violation occur for report ofinjuries and damage, because FHP-enforced-a-code-of-Silence-on-assault.
Appellants speech is Constitutionally protected, the right is clearly establish at
occurrence, under U.S. Constitution, First Amend. The prevailing Rule at[Common Law] is that a party whose rights are invaded can always recover
nominal damage without furnishing evidence of actual damage. However, this
case has evidence of actual damages, traceable to the challenged conduct, and
remedy to redress the injury. Nominal damages are not purely symbolic, ...
awarded by default, until an established- entitlement to other damages.
Uznesbnnam v. Preczewski, 8,11 (2021)...does not provide full redress, partial
remedy satisfies redressability requirement. Church of Scientology of Cal, v.
United States, 506 US 9,13 ( 1992).. [PART-C1 resolve conflict, between
Eleventh-Cir. Mandate Doc:69 April 15, 2009-and decisions of the U.S. District
Court, to change Order-of- Complaint, which conflicts the Mandate- since case
5
instruction is adopted- that-does not-warrant repeat-dismissals].

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

II.
STANDING
REFERENCE: DAMAGES
EQUITABLE RESTITUTION OF BENEFITS *

Cont. : OR abuse of discretion, that several Motions, were pending, on other federal
...... claim-denied as'Moot; arid without heaLfing, move on appeal. The Motion's set forth
■ facts;that conclusions could-be found in the Courts-record. The First petition,
- allege no facts, FHP argue bare conclusions,-However, “Second” petition allege . Tfacts-that might entitle to relief,- [Mandate-Doc:69=Elev; Appeal Ct.I.N This
Immediate Petition** is on I Post-Appeallreturn and dismissal-With Prejudice]],
Appellant, request Punitive, Monetary, and Compensatory Damages: (1) Punitive:
An order for punitive, should prevail premise on officials-FHP, Costanzo, &
Browns-conduct, demonstrated-below. [FHP] had knowledge [employee.
Costanzo] has a mental-issue-and in-capable of controlling his temper, and histantrums are-mental- breakdowns, that cause-consecutive transfers in [Dept.-FHP].
FHP- official-[Brown] turn-from office-policy in investigating numerousComplaints, on Costanzo’s- behavior. Complaints, were through [Browns] officeup to including administrative office exhausted. District Manager, Brown-close
door on agency policy, and protections, which an assault occur. The FL Highway
Patrol Deliberate-Indifference, to substantial risk of serious harm to appellant
violates the Eighth Amend.-deliberate indifference to safety, despite knowledge
FHP known of Costanzo’s reckless behavior, and in other-FHP- departments, as
well, after several complaints. FHP-known/or should have known, appellant,would be subject to harm-attack, base on known characteristics that amount to
deliberate indifference this failure violate eighth amend- rights, where appellant
sought compensatory-punitive- damages. Moreover, is discrimination by racialsegregation, by agent-Costanzo-on behalf of FHP. Estelle v Gamble 429 US 97
1976, Wilson v.Seiter US 294 1991, Bivens v. Six Unknown Fed., Narcotics Agents
403 US 388 1971. In addition to mental anguish, and body-injuries, rightarm/hand/back-knee and-back injuries-because of a fall after assault, sufferedslight-unconsciousness, loss of muscle-control-and ability to stand after shock. The
Support-and Comfort receive repeatedly by employees of NAACP [ Natl.-Assoc.
Advancement Colored People] assist -daily regarding [FHP] racial harassment.
Bureau for- Administrative Hearings, Supervision, HUD Housing Authority’s
Supervision, EEOC Equal Employment Opportunity Commission/ Civil Rights
sponsors, and other- Leadership-Orlando-City Hall, and Congress-Geraldine
Thompson-House District, 44- whose office refer-to: Congress Corrine Brown,
during this tragedy- was a source of comfort.
6

i; •.

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

II. REFERENCE: DAMAGES
EQUITABLE RESTITUTION OF BENEFITS *

The incredible service NAACP- provide at time of injury minimize need for
psychiatric care, on trauma incident. [2] representatives of the Orange County
Sheri ff-'respdhd after assault, this is [two- off-duty] deputies enroute home that :
dedicate-seryice.] Wherefore, Punitive damage should exist on deliberate actions,,
outrageous conduct, and gross negligence. The negligent conduct, of [ FT IP]-and
[US-Bank]- that.attribute to loss of Homestead property: is Case: 19-10568],onAppeal-Elev. Cir]. [FHP-conspired. with [U$ Bank] In-continual retaliation. The .
aforemention conduct is Conspiracy, to i mpede -arid injure an officer-appellant, a _L
fbrmer^tT-officer^cferieal-empluyeerPHPi^yThreat^ntimidation, conspired to1
cause harm that end by wrongful discharge. Appellant escorted-from position. The
aforemention Conspiracy- was meant to cause harm-injure- in -person, and
properly on account "of exposure of government corruption. 15 USC 7A-3 (a)l.
Violation of Whistleblower Protection-Act. FHP-termination also violate rights
under 448.102 (3) FI. Stat. and suspending-termination violate 448.102 (2).F.S.
[US-Bank] aware of termination- part of conversations between appellant, US
Bank- and [FHP]Agent Costanzo. [US Bank] agree with [FHP] to decline signature
confirmation- which a contract fail- that at termination would effectuate. The
Contract, initiate by employee-payroll-deduction. A signature-confirmation- was to
verify-terminated position—and signature for receiving party. The object of
Conspiracy was for Appellant-to feel [FFFP] wrath of retaliation as punishment.
[US-Bank]- argue [three Bankruptcies- 2013-2015-2016]- Discharged—Zerobalance -that with held from immediately obtaining homestead property.
The ‘2013, filed- Bankruptcy, end argument-base-on [plea-settlement]-thoughsettlement [fail]. Wherefore, appellant return to re-instate a ‘2015 Bankruptcy, isDenied. [ Appellee-US Bank-US Bancorpjreset sale. The District Court was
without an official judgement. At Third- attempt to sell-and appellant file
Bankruptcy-[2016] A timely-“ Suggestion of -Bankruptcy.” However, presiding
Judge, advise Clerk—continue proceeding-Auction-sale. Wherefore, Clerk verified
with appellant-by computer-showing “Direct-Order” dis-regard - Bankruptcy- The
property illegally-sold. This conduct, is meant to harm. Thereafter, constant
Monitoring-Surveillance-and deliberate aims toward appellants life attempts on
veh-accident. A- Pro-Bono appointment-by District Court, declined representation
based on character-assassination by [FHP] retaliations. The appellant continues to
suffer. The errors still remain on potential-credit.
7

Renee D. Bel! v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

II. REFERENCE: DAMAGES
EQUITABLE RESTITUTION OF BENEFITS *

r~_

The FI. Highway Patrol willfully subject Appellant to the deprivation of rights,
■ ■ “privileges, and immunities, secured1 by-the US Constitution, nr laws of the United
..States,, to different punishments, pains, and penalties,.on account.ofthe.appellants
race, and other aforemention, under CRA-1964Title VII- and Title 18 U.S. Code
. §242-Deprivation-of Rights Under Color-of Law : Further [FHP] and [US Bank]didimpede appellants rights .during discharge of appellants employment- in terms
of termination- contract, on appellants Homestead Property. [FHP] Retaliate-on .
"' agency ■embarrassment-[US'Bank]-gainTH-egal'-'land-and'Homestead propertyrTitle
18 § 372. illegal conduct is committed on fraudulent actions. As a continualretaliation -FHP-Nationally-televise, dis-credit, and defame appellants character,
the effort to obliterate actual occurrence's^ and direct an audience to employee
performance. Though performance issues are remove by organization-PERCPublic Employees-Relations Comm. Prior transfer EEOC—to the US District
Court. The PERC-Comm- determination- advise T [employee performance has
nothing to do with the issues before the Court]]. Appellant is not able to seek
gainful employment, in trained field. The conduct cause deprivation of the profits
and emoluments might otherwise have obtained. Pods, v. Evans, 15 C.B.N.S. 621,
143 Eng. Rep. 929 (C.P. 1864). The action for damages- involve prospective harm
to appellants reputation, Marzetti v. Williams, 1 B. & Ad. 415, 420, 109 Eng. Rep.
842, 844 (K.B. 1830). [ Banks failure to timely pay was injurious to the character of
the appellant, in his trade”). See: C. Addison, Law of Torts 46-47 (1860) The
[Defamation-actionable without proof of damage). Moreover, is “Unusual-Courtdelay” denial of justice- on hearing on controversial issues. [[“ WHEN is the
governmental-delay reasonable]]” Clearly, a deliberate attempt by the government
to use court delay to harm the accused; or governmental delay that is purposeful or
oppressive, is Unjustifiable., same applies to governmental delay that is “un­
necessary”, whether intentional or negligent in origin, A negligent failure by the
government to ensure a trial is- virtually as damaging to the interests protected by
the right, as an intentional failure ; when negligence is the cause. In determining
legitimacy, and whether it could have been avoided,Treasons! A. The Intrinsic
importance of the reason for the delay. B. Length of delay, and its potential for
prejudice to interests protected by speedy trial-safeguard. [appellant]-a minority
without support of counsel, the case is purposely delayed without intention to
honor Due Process. District Court, denies “Court-Access.” A lengthy delay, even
in the interest of realizing an important objective, would be suspect. Dickey v.
8
Florida, 398 U.S. at 51,52 (1970).

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

II. REFERENCE: DAMAGES
EQUITABLE RESTITUTION OF BENEFITS *

Appellants, case has never been to trial- [ Appellant, is prejudiced by delay] The
case is filed approx.: ‘2-month of occurrence-However, District Court- carry case
fourteen yfs:, into -Statute of Limitations.]] the case erifeT U.S. Districf Court by
-EEOC- Under Title VII-CRA -1964. EEOC-release and provide- [ right-to suit-]
-The.procedural-administrative.requirements-exhausted. Appellant, is not afforded
: procedural protections that Due Process require-as a public employee-reference
-Liberty and-Property--Interest]. The career_sefviceposition provide for-hearing,;and
-review of dismissal by the enforceable property interest. Moreover- the Liberty
" TriterestMn-g6od-'h^e‘-^^feputMf6n^are~accor3e(3’fhe -procedural-safe-guards
before those interests-are deprived. Appellant, is denied the constitutional rightsDeprivation of Liberty Interest, which fictitious allegations, unsupported chargeswrongfully continue to injure reputation [Court access should-not be denied].
Bounds v. Smith, 430 U.S. 817 (1977). The removal-Life-Liberty-Property Clause
Fifth, and Fourteenth Amendment, clearly violated. The fundamental requirement
of Due Process. ...is-meaningful time...meaningful manner” to be heard. (1). The
appellant, file this original- case 12/05/2005. (2) A Pro-Se-Litigant, receive
favorable- Mandate on Second-Amended-Complaint. (3). The appellant, was a
Civil service employee-with protected property rights-entitling to a “speedy-trial”
for public service employees. (4). Appellant-has First-Amend. cause of Action.
The case is premise on federal claims-though intertwine with [State-Action] The
Federal issues are Bivens- and a ADA-claim that confirm an-injury-disability.
Punitive damages should be to reform or deter defendants from engaging again, in
similar cases, which form basis of this lawsuit. The conduct of [FHP]-shamefuldishonorable lacking honor and integrity, that no matter what hatred one has for
any person-the “Color” of his/her skin -should not matter. Monetary- Injury and
loss base on deliberate negligence. Compensatory : loss is result of negligence,
and unlawful conduct, of [FFIP] and agents[12-M] Compensatory-Treble damage
[time-3] Racial-base-deliberate denial to use-restroom- as Caucasian employees.
Deliberate denial to blacks of an opportunity to use public restroom on account of
race violate the Equal-Protection Clause of the Fourteenth Amend. Swain v.
Alabama, 380 US 203,204 (1965). The rear entry to building during work hours
[because of race], and separation from Caucasian-employees-on race . Moreoverlocked in Tcloset-space base- on-race-Racial-Segregation]. Infliction of “Cruel and
Unusual Punishment, violate the Eighth & Fourteenth Amendment. Equal Rights
under the law §1981 (a-c) Civil action Deprivation, allows recovery of
Compensatory and Punitive Damage -Intentional-vioIations-Title-VII.
9

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

II. REFERENCE: DAMAGES
EQUITABLE RESTITUTION OF BENEFITS *

[FHP]-“only” assert denial of state-claims under §1983, in the request to dismiss
citing [Estopple]. “Estopple-Demonstrated below”:
The Claims of Appellant-that relate to §1983, 1981-Title VII- and Fourteenth
.... „, Amend-“Under Color, of- State. Law’T To “act” BEYOND the bounds of lawful,.
authority, but in the manner that the Unlawful-acts were done while the official,
either-was purporting or “Pretending” to act in the performance of his official
duties. FHP et.al clothed with the authority of the state, pretended-WHEREFORE,
.. FHP-Motion to Dismiss, [Doc: 141 should beTeverse. The request for Treble
Damagerbased on complexcase-where legal and factual issues are unusuah Thus
require expenditure of more time, skill, and effort than would be required in an
average case. Further, because of longevity-of case-no counsel willing to
represent- after FHP-fictitio’us allegations.
The case began 12/05/2005,- complex, where train counsel is needed at onset
large civil case, multiple parties, and diversity-of Citizenship. Reference Court
appearances-FHP- agree by sworn affidavit-before PERC-Committee-to deliver
[Costanzo-] before the Courts-[when called for this case].[FHP] fail-on sworn
testimony. FI. Statute-95.051-Concealment- of the person to be sued, toll the
Statute. FI. Stat. 95.051(d) action is filed within [one year] of event, giving rise
to the cause of action. Ch.95 FI.Stat. Year-2020. [[This-Testimony-is prior case
transfer-by EEOC: to District Court]]. Wherefore, prior judgment not final.
Costanzo, primary to-suit- is not process serve- District Court, is Notified-on the
process return-and deny-extension on service of party to suit-diverse-citizen-[ Doc:
] Michigan. US Bancorp- parent Co. to -US-Bank- Headquarters-Minneapolis,
Minnesota. [US-Bank-US Bancorp-above caption- Is process-serve-diversity exist.,
this Case 19-10568- relate on retaliation. The amount-sum-in controversy-is over
the $75000-diversity standard.
The second-complaint, which is mandate- appellant request $12.M+treble damagethis restitution for purposeful [delay-of-justicel,which is same as denied. Further,
treble damages-declaratory, and [in-junctive relief] for claims that FHP- aim- to
deter case and remove from Court, by meaningless-dismissal-Motions. FHPcontinue Harassment-threats same as on termination-those are: Denial of salary, for
un-employment, public assistance, denial disability-fthough disability]-latter
approve-threats in removal, monitoring-daily, unemployment-block after began,
retaliation on report to worker-comp., for care on injuries, and denial of physicianmedical visits.
10

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

II. REFERENCE: DAMAGES
EQUITABLE RESTITUTION OF BENEFITS *

The multiple-vehicle attacks, and defamed credibility with businesses, and or
agency’s when applying for employment. Further, is-denial of performance-of- :: contracts of insurance held by appellant-obfain through employment; which at
t_ermina_tion-agency signature, required to release funds. Further [FFTP], interfered
with education, denial of loans through college[FHP- personnel employed at
college-loss scholarship,“and ended career..[FHP] aimed to destroy credibility.

DAMAGES AND THE ELEVENTH AMENDMENT”
EDELMAN V. JORDAN 415 U.S. 651 (1974).-ELEVENTH AMENDMENT
-" Vf

• -

A.- The aforemention Damages are barred by the Eleventh-Amendment.
Edelman:
1. The Eleventh Amendment of the Constitution bars that portion of the District
Courts decree that order retroactive payment of benefits. Pp. 415 U.S. 658-678
2. A Suit by private parties seeking to impose a liability payable from public funds
in the state treasury is foreclosed by the Eleventh- Amendment if the state does
not consent to suit. Pp. 415 U.S. 662-663. It has been long held that sovereign
immunity of the state prevented a suit to recover money in the state treasury.
Smith v. Reeves, 178 U.S. 436 (1900).
3. Aforemention- the Eleventh Amendment, prohibit fback-pay- Money you
would-have earn had-had termination NOT occur. Back-pay cover-bonuses,
vacation-leave, and healthcare. The issue : Discriminatory Termination, the
costs, and pension-payments, &-[Front-Pay-Equitable remedy, is reference
employment discrimination.
rather -Compensatory damage4. The request is “Equitable Restitution
Equitable Relief within meaning, Doctrine of Ex parte Young. 209 US 123
(1908). aforemention officials were under federally impose obligations which
is violated. Edelman clearly permits federal court to grant forward-looking
injunctive relief even if compliance by state officials entails payment of
substantial sums from the state treasury.
5. Edelman -limit federal courts to providing only prospective relief. In
Ex Parte Young, (1908), a federal court suit, seeking to enjoin a state official
from committing UN-Constitutional-acts is not suit against the state*. CONT:
11

-

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

II.
6. Rather, suit against a state official in .. individual capacity...by acting in an
unlawful manner, is stripped of the authority and imprimatur of the state*.
Exparte Young enable federal courts to entertain actions against state officials in
various types of section 1983, civil rights act 42 U.S.C. 1983 (1976). [ The appropriate transfer of the gov. funds]. In delineating the kind of relief ExparteYoung permits, Edelman Court held that-federaf Court is empowered to order
expenditure of funds from state treasury if [Ancillary] to injunctive relief. Ex parte
Young, 209 U.S. 123 1908. Further, 1985(3) provide .‘cause of action’ reference, .
aforesaid,[private-conspiracy], in violation of constitutional, rights-of Fourteenth
amend.
Note:
Article III of the Constitution authorize federal courts to decide only ‘cases’ and ‘controversies’
-that is, cases of a Judiciary nature”. 2 Records of the Federal Convention of 1787, p. 430 (M.
Farrand ed. 1966)(J/ Madison). “The constitutional power of federal courts cannot be defined,
and has no substance without reference to necessity to adjudge legal rights of litigants in actual
controversies.” Quoting Liverpool. New York & Philadelphia S.S. Co. v Commissioners of
Emigration, 113 U.S. 33,39 (1885))). The case in the District Court, approx.: Fourteen yrs.. this
is a case with continual controversy.
_\v*

****o/oo/oo/oo/oo/o****

III.
SECTION-III: THE APPELLEE [FHP]ARGLMENT-AT DOC:14
-REQUEST THE DISTRICT COURT TO DISMISS CASE-AND
COMPLAINT- BELOW IS APPELLANTS RESPONSEREBUTTAL TO [DOC:14l
THE FHP MOTION TO DISMISS WAS A 12(b)6 MOTION ON AN
INFORMAL PAUPERIS PETITION FOR FAILURE TO STATE CLAIM
In essence, :RULE-56 SUMMARY JUDGMENT BASED ON BELIEF OF RESJUDICATA. APPELLEE-US BANK “DID-NOT” FILE A MOTION IN THE
CASE***
Res-Judicata:
District Court, premise on the Report/Recommendation of the Magistrate deny
appellants requests for hearing, and Motions for re-consideration because the
magistrate fail to review the Courts Record. Further, based on findings ,
information outside the pleadings, and Motion of Appellee-FHP at [Doc:14], The
District Court recommend case-dismiss, and closure.
12

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

III. -CONT.
District Courts affirmance is-plain-error, (1). The magistrates verification of the
record would have shown the appellant-filed objections-although-late, that
appellant is not notified by the USDC Middle District, of case number change
-- during time case -on appeals. (2). Notice is not receive from the magistrate-on FI IP
Motion for summary judgment, the 12(b)6 caveat on the Motion require Notice.
:(3). Had::notice: -receive the[ 10-:day^grac e] would’1' be met. Moreover, request "to
- amend Complaint, af least once prior dismissal, of case and complaint. Fed'. K.
Civ.P. 15(a) Foman v. Davis 371 U.S. 178~ 182 (1962). :
*.Vsr-’

The Rules ..of. Civil! of Procedure, encourage an opportunity " to._amehd .before
dismissal. 2 James Wm. Moore, et al, Moore’s Federal Practice §12.34[5] (2000).
A dismissal for failure to state a claim is on the merits. Johnsrud v. Carter, 620
F;2d 29,32-33 (1980). To dismiss a plaintiffs claims on the merits,-without first
permitting an opportunity to amend, would constitute a forfeiture resulting simply
from noncompliance with the Rules of Civil Procedures. [This case has shown a
mis-carriage of justice-over fourteen-yrs. repeatedly, and aimed at the strike of the
merits]. (4) Review of the record would verify longevity of case-that case is [notnew], and the Pro Se’ request for new-case is error. Further, would reveal, case
recent return post-appeal. Therefore, because of Non-review the R&R does-not
correctly confirm the record. Wherefore reversal of the order should be granted.
Res-Judicata, does not apply, that the period of state claims from original
complaint, are not the same as federal -Bivens actions, and are entirely outside the
period alleged in initial-claims. There is material evidence that supports the
findings in this case-demonstrated above. Further, on denial court access, the case
does not present a lack of subject-matter, on the basis of the pleadings. Wherefore,
[FHP] has not met its burden to request a dismissal-at[Doc:14].
The appellant, is not afforded the procedural protections that Due process require.
Appellant, is entitled to Due Process as “Public-officer” and Civil-service
employee, that local state-government employment include a property, and liberty
interest. The fundamental requirement to Due process is ....opportunity to be heard.
See: Matthews v. Eldridge, 424 US 319, 333 1976. Therefore, based on
aforemention the “petitions” which follow after mandate dismiss are inappropriate,
and judgment could not conclude, on Res-judicata or Equitable-Estopple, that
[prior-judgment] must be final. Creed Taylor v. CBS Inc. 718 F. Supp. 1171, 1177
(1989). The District Court has subject matter jurisdiction, [Not challenged]
colorable constitutional claims are asserted.
13

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

III. -CONT.
Califano v. Sanders, 430 US 99, 109 (1977). Constitutional claim is colorable if it
is not wholly insubstantial, immaterial, or frivolous. The Eleventh Cir. Appellate
Court favorable Mandate would not support frivolous Complaint. Further, Court
..
. access-discovery would show verifiable genuine-material-facts. Rolen v.■ Barnhart,
273 F. 3d 1189, 1191, (2001). Furthermore, it-is-not this instant complaint, which
' isTriandated'. However after mandate-orderTno"'other complaint-should exist.
Equitable Estopple: is asserted by FHP-at [Doe:141 an Example :
.......... The Florida Supreme Court, permitted a plaintiff, who had been abused as a child,
to utilize the defense of equitable estopple, even though she did not learn of the
" CL. -- .Cause ofaction. until .after the limitations perio.d.expired,J£vi3?3 v.Labo de_Gonzalez._
921 So.2d 572,672-73 (2005). In this case:[The District Courts failure to exercise
jurisdiction to clarify the law regarding the Doctrine of Equitable Estopple-Is
because the District Courtsopinion conflict with the United States Court AppealsEleventh Circuit, on [Doc:69] in-granting appellant, court access to demonstrate
her case. Therefore, the amended complaint, “Second-Amended” pleads the
defense of equitable estopple to deflect the applicable statute of limitations. The
[FHP] Motion to dismiss [Doc:14] should be reversed, given that the [amended
complaint, and Mandate]- conclusively establishes that the statute of limitations
does not bar appellants claims as a matter of law, which [Doc:69]-Mandate is the
precedent for this case, on authority of The United States Appeals Court-Eleventh
Circuit Court of Appeals.
Furthermore, In tolling Pursuant to Section 95.051 Floridil Statutes* with
respect to appellants claims-the claims are tolled pursuant, to Florida Statute F.S.
$95.051, (a)(c)(g)(h). Moreover, Equitable Tolling Doctrine F.S.$95.051(2)
tolled the limitation period for an administrative appeal of a public employees’
discharge. Equitable tolling of time limits have been permitted in federal actions
where “active deception” took place. Cottrell v. Newspaper Agency Corp. 590 F.2d
836, 838-839 (1979). That-where plaintiff, has been “lulled into inaction by past
employer, state or federal agencies or the Courts”. Miller v. Marsh, 766 F. 2d
490,493 (1985).; Martinez v. Orr, 738 F.2d 1107, 1112, (1984), and where plaintiff
has been “actively misled” or “has in some extraordinary way been prevented from
asserting his or her rights.” [Denial Court-access]. Wilkerson v. Siegfried
Insurance Agency, Inc., 683 F.2d 344,348, (1982). Appellant, filed a timely action
for violation of civil rights, CRA 1964-Title VII-CRA-1871, and §1983 against
FHP-agent Costanzo, on behalf of [FHP] given Costanzo’s, abscense from the
state.
14

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

III. -CONT.
Section 95.051 (1) (a) Florida Statutes, provides the running of the time under
any statute of limitations except ss. 95.281, 95.35, and 95.36 is tolled by
...[Absence-from the state of the person to be sued. §95.051(l)(a).
The Res-iudicata Doctrine argued by [FHP] is based on extrinsic evidence,
■ Morrison vv Arhway Cdrp:d323 F. 3d 920,924 h.5 (2003)r [FHP] has not met the
::burderi^f:-establishingTMtIthe:USU9istrict-~Court, does not have jurisdiction which
would be grounds-to-request that-a fourteen-year civil rights case face dismissal-.■The District Court denies the right'to redress, and court access which should-not be
^impede. Bounds v Smith, 43.0 U.S. 817. (1977). Bounds, supra. AtT822.District Ct.,
fail to comply with Constitutional standards. Appellant assert a violation of
Bounds, which actual injury is derive from the Doctrine of Standing. Moreover,
vMonroe vPam, 365 US 167, 173-74 (1961) for Deprivation of Constitutional, and
or federal statutory rights. The Finding of the District Court, is inadequate without
rebuttal, and failure to consider the record is Due Process-violation.
To assist in bringing this controversy to an end District Court, should proceed as
when case-transfer by EEOC-to finalize Due Process -base on “Right-to Suit.”
Also, in accordance with Doc:69-Mandate-which satisfy Procedural Due Process,
fair hearing is required, ...full administrative review. The earlier- pre-termination
conference only produce whether FHP- grounds for termination are valid, and are
Not-complete-in its findings. Thus, is case-transfer by EEOC-under Title VII.
[Constitutional Due Process] Therefore, [Procedural Due Process- fair hearing
and full review-in consideration of the record, and the opportunity to be heard, on
rebuttal-when denied violate Due process-Goldber2 v. Kelly, 397 U.S. 254 (1970).
Bivens claims are asserted on suffered compensable injury-in-fact, to rights or
interest protected by the United States Constitution. The appellant sued [FHP]and two official-agent-employees for acts describe in the lawsuit, Racial
Discrimination/Segregation/Defamation-and Termination, Further base on report
of injuries on Assault. Appellant, timely brought suit under Title VII-CRA 1964,
Civil Rights Act-1871, and 42 USC § 1983-state-claim. This case is intertwine with
federal claims. Appellant allege that the state action inflicting injury flows from
explicitly adopted and or tacitly authorized state policy. The Policy of Dept, of
Highway Safety Motor Vehicles. Monell v. New York City Dept. Social Services,
436 U.S. 658 (1978).
15

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

III. -CONT.
Holding that local-governments can be liable under§1983 for customs or policies
that result in constitutional deprivations, which appellant suffer, loss of property in
employment, loss of homestead property due to the conduct, and longevity of case
- delayed omdocket, loss liberty, liberty interest in employment, loss of liberty to
gain employment in train-field, loss of the right to equality, in contact of police
~' assistance,HossoTdquality to locate professional-work related to training , the right
to freedom-from monitoring,.following, recording on- phones, deprivation of life-.
freedom to be left-alone-or feel, and be secure in-own-person, papers, house. The
fe-deralxlaims Bivens action: Bivens v: Six Unknown Named Agents, 403 U.S. 388
. (1971). Appellant, soukhtTelief under.42--USC-^..l983T85,.the.Fedefal Obstruction
of Justice Statutes, [ ]Denial Court-Access] and Bivens v. Six Unknown named
Agents , 403 U.S. 388, 91S. CT. (1999). [FHP] Misconduct deprived appellant of
civil rights in violation of §§ 1983-85.
........................
...
[FHP] violate-Clearly Established Law. US Constitutional issues in this case are:
Amend(l). Freedom of speech/press/and the right to petition the government
Denied by District Court- in denial of Court-access, the courts are the central
dispute settling institutions[ and the equal protection clause fail, because the doors
to justice under the law is closed]. District Court-deny redress-in rebuttal to
allegations. Griffin v. Illinois, 351 U.S. 12 (1956). Freedom of speech-Amend (1)
A call to an-emergency response-team on assault with/injury-cause FHPtermination. Amend (5). Self incrimination-deprivation-life, liberty, property-FHP
forced-sworn testimonies without department approval-later deprive appellant of
liberty/property, protections-on civil service employment at termination. Amend
(8). Cruel & Unusual Punishment-Appellant force- based on race-to separaterestrooms-and water-facility’s because of race-force to use rear-of building on
race-on report to duties. Segregated from the Caucasian employees -in closet-space
because of race. Amend (13) Involuntary Servitude-which appellant is closed in
space-Costanzo monitor. Amend (14) Sect.l-abridged Immunities: Liberty-and
Property- Denial of Due Process in Court-Denial of Equal Protection of the Law-In
respect to injuries-that cause termination, and Court-Access-redress for injuries.
Therefore, for constitutional rights to be clearly established, its contours must be
sufficiently clear that a reasonable official would understand that what he is doing
violates that right...In light of Pre-existing law, the Unlawfulness must be apparent
Hope v. Pelzer, 536 U.S. 730, 739 (2002). FHP-had fair notice, and made aware by
EEOC-thier conduct is Unconstitutional.
16

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

III. -CONT.
Anderson v Creighton, 483 U.S. 635, 640, (1987). [FHP] Numerous filed-Motions
to offset-case-and remove from Courts-result to the 'requests to dismiss’ though
favorable Mandate-is,ordered. Therefore, repeated un-necessary dismissals prevent
case from progress, this conduct prejudiced appellant. The District Court, dismiss
case accordingly each Motion- that deprived appellant of the opportunity of
redress, and Court access. A violation.of.Constitutional Rights: Fundamental access to Court, Opportunity to be heard, Equal Protection of law. The appellant is
depri ve of Due Process, Under Fourteenth Amendment: A), procedural-!: Notice, ■
.2. Opportumty.tC) be.he.ard; 3 .Impartial Tribunal. The appellant has not received , t,
any Notices, -Notice normally arrive a week, or two after a Court decision, if at all.
The appellant, has not “Had a day in Court” to be heard.” (3) An Impartialtribunal not occur since case is filed December 05-2005-, the change of casenumbers alone without notice to appellant, is a prejudice, which in this instant
case, without notice of the changes delayed appellant-objections, leading to
dismissal [Doc:19-Dismissal]. Mullane v. Central Hanover Bank & Trust Co., 339
US 306 (1950). The revised Statutes, and 42 USC 1981, provide recovery of
compensatory, and punitive damages. [[ Aforemention-Equitable Restitution]
There are Intentional-Violations of Title VII- in this case-related to
Discrimination/Retaliation, U.S. Constitution Claims, and U.S. ConstitutionAmendments (1,5,8,13,and 14). The complaint, allege deprivation of constitutional
rights under Fourteenth Amendment Due Process Clause. The “State” actions are
actions inflicting injury which flows from explicitly adopted and or tacitly
authorized “State” policy, which is the Depart. Highway Safety & Motor Vehs.
The [FHP] fail to protect appellant, from [Costanzo] recklessness allowing
Costanzo to supervise, that his illness with uncontrollable temper disorder and
sickness lead to assault of appellant with injuries, and based on the report [assault]
in exercising First Amendment rights, is termination. Appellant, never had a
hearing when case pass to District Court, by EEOC to conclude Due Process in
respect to civil service employee, liberty and property rights. Further, the suit, is
delayed by District Court on “ Repeat-Dismissals” premise on [FHP] aim to block
Court-Access, therefore is a procedural process and delay of case. This conduct
violate the fundamental right, both Due Process, and Equal protection under the
Fourteenth Amendment.
17

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

IV.
REASONS FOR GRANTING THE WRIT
The Appellee-FHP believe that their repeated- Motions-to dismiss should be an estoppel for
.......this civil case, because their “Motio,ns”To dismiss cause dismissal of complaint,..case ,_and a
favorable Mandate, where the District Court, and the U.S. Appellate Courts, heard
argument on the “Merits”:on the. appellant state-claims- disposing of the case. -Therefore,
— ' -based on those arguments “without” appellants rebuttal-brought case closure.-Wherefore,
==-:’ according to their arguments, the appellant, should be denied fundamental constitutional
rights, such as access to the Court, and Equal Protection, of the Law, on the appellants USf
Constitutional claims.
—
-A. Summary of the Argument:
When a United States Citizen is denied U.S. Constitutional fundamental
rights in his/her own Country, is he even entitled to Court Access in the U.S.
B. Argument:

The appellee-FHP-Doc: 14 argue Statute Of Limitations bar the
claims in this case. The Statute of Limitations, are not barred in this case, on
authority of Title 8 §95.051- the appellee-FHP successfully concealed the
cause of action, and employed fraudulent means to achieve Concealment.
Aforemention demonstrate that FHP-attest to producing [Costanzo] in
appearance of State-PERC-Court-Further agree that Court documents
process serve-would be forward by FHP- to Costanzo. Costanzo-verified by
sworn statement, FHP-would be made known of residence as long as case
continue-ref., appearance on Court hearings [attach] proof of service on
Costanzo-is denied by FHP-as company hired by appellant serve on FHP
summons for Costanzo-which is the service reference the current issue
before the Court[ SEE Court-Record Case:6:18-cv-00193-Process Server,
advise by-FHP-Counsel-[Cridlin], to return documents to District Courtwhich wouldn’t be accepted on behalf of Costanzo. District Court- then
refuse to extend-process-service. Therefore, appellant file Notice by
rNewspaper-Florida-Michigan ref. case, [attach-is-verification]. Doe v.
Cutter Biological, M.D. Fla. 1993, 813 F. Supp 1547.

18

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

IV

“
.
7
—

(1). The appellee-FHP-agent [Costanzo] is former resident, of Florida where Assault occur. The original-complaint, is file at time of occurrence,
which is before the running of the Statute!- $95.111 Although, service of
- -^process is return in [Iristant~filing]r Process service- -,-prior-i-s complete?- : :
: THis- irisfant case, [same as-filed-N6':6':05-cv-T806"-]. The~FHPragent ~
.. .Costanzo, is not process serve ’in this action, this does not bar “cause of
. ^ action” in this case. [Costanzo] is process-serve in case in original-filing -.
The case references - Fcd.R.Civ.P. Rule 15. [FHP] agent- Costanzo-was a
- Florida resident-and move from the state: Dibble v.-Jenson* 129-So.2d-l 62-...
(1961). Further-Costanzo cause- Assault on authority of the employer-FHP,
clothed with authority of the state- while “pretending” to act in performance
of official state duties. Therefore, FHP should not benefit from Statute of
Limitations when their own agent wrongdoing, and abscense from the
state, caused delay, along with the District Courts delay, in the appellants
filing of the cause of action. [FHP] contributed to case delay by filing of
“un-necessary Motions” which delay by appeal. The conduct is after, -U.S.
Court Appeal-Eleventh Cir.] declare favorable Mandate for appellant. The
Statute of Limitations is tolled during time of a fraudulent concealment. The
case in District Court-leaving Court docket-only when appeal. This petitionreferences appellee -[Motion to Dismiss- at [Doc:141. f[ The case-and
Complaint is file with-process service, prior to statute of limitations
maturity. Butler University v. Bahssin, 892 So.2d 1087 (2004)]].
Rule 56: The Request for Summary Judgment-by FHP, the [FHP]
have not provided evidence that genuine issue of material fact does-NQT
exist. Moreover, there is a genuine issue of material fact as.to whether
appellant-suffer as a result of [FHP] breach of contractual obligations.
Rule-56:
Appellee-FHP summary judgment Motion-[l 2(b)6-claimed Res-Judicata,
is “fatally defective” by the fact that appellee-FHP, made no effort to
“Adduce any evidence”, in the form of affidavits, or otherwise, to support
its motion. Holding that [FHP] failure to support its motion with evidence
tending to negate such exposure preclude the entry of summary judgement in its
favor. Catrett v. Johm-Manville Sales Corp244 U.S. App. D.C. 160, 756 F.
2d 181 (1985).
19

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

IV.-CONT.

_.

Further, APPELLANT- need not respond Until after [FHP] has met its burden
of coming forth with proof of the absence of any genuine issues of material fact.
Id. at 244 U.S. App. D.C. at 163, 756 F.2d at 184,
C. acts on which the Petitioner Relies in the Record -Reason for WRIT
a. Sworn-Affidavits-Sworn Testimony’s
b. Recorded-911 call-testimony of injury-after-Assault.- - • • cT'Documents verifying stafements* '“
d. Clearly -EstablishedTiaw-at time of Incident-Assault-Injurys
R. PRAYERS FOR -Relief-Sought:
- -.... ........... —
.......
a. Overturn ‘Order’of the District Court.
b. Order District Court to HOLD a hearing-which is advise by “Rightto-Suit” letters-EEOC; and by DOC:69-favorable Mandate-Eleventh
Circuit Appeal-as the case Precedent. Moreover-Order-Court
Reporter, that the instructions of the “Mandate” is honored.
c. Appellant-seek against all Appellee’s-[FHP-Et.al]-re-instatement. [Backpay-on- Discriminatory Termination. Front-pay-Make-whole relief-on
Employment Discrimination.
d. Appellant seek declaratory and Injunctive relief against the state officers
in their individual capacities, as well as whole. Further,
e. Correct-Retirement Information-Appellant work 14yrs ER-Dispatch-8Yrs
Clerical Secretary-premise on Retaliation-wrong information-input.
Further, Tailor Declaratory, and Injunctive Relief so as to minimize
interference, and in order to afford opportunity for voluntary compliance
with the Judgment, and Thus does not conflict with the policies
underlying Sovereign Immunity.

DOC: 19 ORDER- DISMISSAL
US DISTRICT COURT
APPELLANTS RESPONSE
DOC:19-FILED: 06/06-18 [PG.l-OF 2\
District Court- paragraph (1). Appellant, fail to respond to objections
which the court advise in the Order-30days-passed. Pg.l.
A. Paragraph (2). The District Court, advise this is appellants [3] rd. suit
based on employment- by [FHP].
20

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

■

•

IV.-CONT.
(b) 1. Based on FHP Motion-Claims barred by Statute-Limitations
(b))2. Barred by Res-Judicata-and OR Collateral-Estopple
(b) 3. Sovereign-Immunity-pg.[ 1] of Doc:19]
C. The Implied statement-that- Plaintiff-had a “Day in Court”
D Motion -Granted- Dismiss-With Prejudice.
APPELLANTS -RESPONSE
A. Demonstrated above1 Appellant file objections-which the filing is delayed that
the district court changed appellants"case number, while case was on appeal.. "MofCOver-re-assigned case under newJudge.'Therefore, objections were not
timely-based on this action. Further, the appellant is not notified regarding the
Magistrate report-Until after Order-dismissing file by the District Court.
B. The appellant, has ONE-SUIT based on FHP-F1. Highway Patrol-et al. [with
exception of case 19-10568-Eleventh Cir]. That originate from this case. -6:18cv-00193, [Demonstrate above].
Claims are not barred by Statute Limitations-Demonstrated above.
The claims against the employer-FHP is tolled based on the tolling of
the Statute of Limitations for the claims against the employee.
Aforemention, appellant demonstrated that she is entitled to equitable
tolling, and provided good cause. Further, on the grounds of delay, is by
error of the District Court, the case should be considered , and therefore
not face dismissal. FI. Statute of Limitations cited in support of are:
F.S. $95.051, (a)(c)(g)(h) - Established above. Further, the Equitable
Tolling Doctrine F.S.§95.051(2) stated above tolled the limitation
period for an administrative appeal of a public employees’ discharge.
Furthermore, there are five requirements design to protect a Pro Se,
litigant: (1). Process issued and served-(2). Notice of Motion to dismiss
Complaint (3). Opportunity to submit written memorandum, in
opposition to the Motion (4). In event of dismissal, a statement, on
grounds therefor.(5) Opportunity to Amend Complaint, to overcome
deficiency. Armstrong v Rushing, 352 F2d. 836 (1965). The Pro Se
Complaint, prone to more errors than ones represented by Counsel.
Haines v. Kerner, 404 US 519, 520-21 (1972). This case, is complex,
Doc:69 is mandated as a guideline. District Court improperly dismissand case suffer delay, Up-to statutory limitations.
21

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

IV.-CONT
Nollv. Carlson, 809 F2d 1448 (1987). the civil rights action should bereverse, for the courts failure on-procedural requirements. The District Court
failed to comply. Although, all parties are prior serve, in the ‘instant’ complaint,
appellee- Costanzo, was noFserve,"[demonstrated above] (l).The District Court,
denied Extension after process, is returned Un-served. (2) Appellant, did not
receive-Notice. (3) There was not an opportunity to submit memorandum in
opposition to the Motion. (4) there is-no statement, on grounds thcrcof-except .
after dismissal Bclow-Doc: 19-Order. (5). Opportunity to amend is not there, the
complaint is.Dismiss, and case closed. ..... _
B-(2). Res-Judicata -Collateral -Estopple:
a. Demonstrated above: Res-Judicata- violate Due Process, when appellant
__ _ fail .to achieve on appeals after repeat dismissals of case, and complaint, .
because of denial by District Court, to honor Mandated-Order-[Doc:69]. The
“Order” is precedent for this case. The issue Pro Se, appellant, is-not
represented by Counsel, during the earlier proceedings. Evan v, Chater, 110
F.3d at 1483 (1997). Therefore, after, return Post-Appeal, in this instantcase, the complaint should not-have dismiss-without opportunity to amend.
Fed.R.Civ.P. Rule 15(a). Forman v. Davis, 371 US 178, 182 (1962).Unless
determine complaint... be cured. Wherefore, based on aforesaid, the District
Court should not make assumption-that with favorable Mandate appellant,
could-not demonstrate-the entitling relief. [Doc:69]. The Error occur at
dismissal, when Petition is file, -“Title-of’-new-case. After-[FHP] filed
Motion to Dismiss, at-Docl4. FHP- had knowledge-that the case is (1). Notnew (2). Extensive court-time in case-and controversy not settle (3)
dismissal -Open-opportunity on mistake of Pro Se-litigant (4) And denial of
Due Process, because [Title]- appear file after Statutory period. This case is
filed timely.. Although, a favorable mandate, A Pro-Se , litigant before the
Court has limited knowledge of law, Unlike trained Counsel. Pro Se,
litigants are dis-respected. [Doc:69] has a “cause of action” acknowledge by
appellate court-However, as Pro Se litigant, denial of the fundamental
constitutional right-of Court- access, block case, and violate Title 28 US
Code §§1654, and Article, (1) § 21 FI. Constitution. Evan v. Chater, 110
F.3d at (1997)., the “right to have a “Day” in Court. Const. Amend. 14.
“Generally, District Court err in dismissing a pro se- complaint, for failure to
state a claim under Rule 12(b)6 without giving opportunity to amend.”
Davis v. District of Columbia 158 F.3d 1342, 1349 (1998). Caveat-on
22
12(b)6.

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

IV.-CONT
Where a trial court dismiss a claim.sua sponte-under 12(b)6 without affording an
opportunity to replead, remand is appropriate unless claimant... win relief.”
Wherefore, a remand, is request. District Court should only apply Res-Judicata
when “all” requisite conditions are met; Res-Judicata is not applicablerwhentheprior determination is not final, FHP-Doc:14 pg.12, FHP converse on the
dismissal of the Eleventh Cir. In [2017], and fail to acknowledge that the issue
before the [Eleventh Cir.].was appeal-Not a subsequent related suit as worded in
”FHP- Motion for Dismissal! Pp'12 of [FHP] Doc: 14. Further, FHP- fail to include
that after that-dismissal, appellant appeal to this US Supreme Court, whiqh ....documents can verify. Furthermore, FHP-falHo- acknowledge the case not chosen
for review, as most Informal-Pauperism cases are not. FHP-Doc:14-pg.l2, FHPclaims Collateral Estopple, for a case NON related to this one. The issues of the
case FHP claims has not been litigated, nothing to do with this case. Further, no
judgments in another case, which this case is party to suit-Exception- Current case
before Eleventh Cir. Appeals Court, which has not yet been determined 18-10568,
Wherefore, FHP allegations are not accurate. Doc:14.
Dismissal-reference: PLRA-Prison Litigation Reform-Act-1995.
b-(2).
The appellants-Complaint, is file under Informal-Pauperism-and—
request District Court to appoint Counsel. 28 USC § 1915 (a) 1 with sworn
affidavit-to confirm Income. The Informal Pauperism-Xhat appellant, could
not afford filing-fees. However, District Court dismiss under 28 USC § 1915e-2
PLRA contain several provisions that require district courts to screen lawsuits
filed by prisoners, and dismiss those suits sua sponte under certain circumstances
among these provisions is section 804(a)(5), which is codified as part of the
Forma Pauperis Statute at 28 U.S.C. § 1915 (e))(2). District Court, aware of the
requirement of USC §1915 e-2, purposefully dismiss appellants case, when it
known case did-not fit, ‘§1915 e-2, Further, it is known appellant, is not a prisoner,
and case, well-over (14yrs) with a continual history of controversy.
Moreover, same judge-from case start-with exception of this instant complaint.
Wherefore, this is an deliberate-injustice. District Court, under § 1915(e), is
required to dismiss an in forma pauperis complaint that fails to state a claim...
Barren v. Hamilton, 152 F.3d 1193,1194 (1998). [there was not a failure to state a
claim in a mandated order]. This complaint, is filed after return post-appeal, [same
complaint, prior-appeal, previously before District Court- [FHP] Doc: 14 is meant
to confuse.
23

m.
•

*
<*

#

#

t
*

♦
#

*

*

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

•

IV.-CONT
A judgement was not on the Merits, by this Court, afore said, once on appeal to
this US Supreme Court, the case simply is not chosen for review. The complaint,
AFTER post-appeal is an error titled “New-Case.” In respect to dismissal, once
filed. In'accordance with Fed. R. Civ.P. Rule 15-relations backj.Thecomplaintis entitle to an amendment, that is Not granted.
—
INFORMAL-PAUPERIS: demonstrated: This instant complaint/before the""
Court, is file and the~appellanT request Informa-pauperis to proceed. The Distfict
Court, denied therequest andapplied Franklin v. Murphy, 745 F.2d 1221 (1984).
The complairrtirad a defeet-“faiIureto state a claim” and could beproperly
dismiss under §1915(d). prior to service of process, and without opportunity to
amend. The “issue” §1915(d). grants-dismissal. However, FHP-Motion to dismiss
is under 12(b)6. The 12(b)6, has a caveat unlike 1915(d) which appellant is not
notified, and opportunity to amend is-not given. Moreover, appellants request is for
1915(a)! -and (e-1) counsel-representation, which is mis-construed.
Discussion: Aforemention: District Court, did not intend to grant appellant Due
Process-of Court access. Examine here: District Court, may not dismiss an action
before process is issued and served, and without giving plaintiff, notice that the
Court intends to dismiss, and an opportunity to oppose it. Statement on grounds
and opportunity to amend. Potter v. McCalL 433 F.2d 1087, 1088, (1970). There is
no mention of subject-matter after fourteen yrs., case history, Franklin /, 622 F.2d
at 1342. For IFP-Complaints, the statute authorizes dismissal. Further, under Rule
12(b)6, the opportunity to amend is accorded before the “Motion” is ruled on.
IF/zerefore, clearly District Court is not a neutral party, its-privy one side of the
conflict. *The opinions of Franklin, and Noll,, are offset by Neitzke v Williams, 490
U.S. 319 (1989). NolL incorrect for extending procedural protections, Franklin,
incorrect, for granting Complaints, whose only defect is ‘failure to state claim’ be
characterized as frivolous, and dismiss under 1915(d). The Supreme Court: A
complaint is not necessarily frivolous under 1915(d).
The District Court,
The District Court is referenced in this appeal-Petition, which bring case before
the Courts. However., [See: below]
The Eleventh Circuit Court-of Appeals
Is the last Court to Review-***the case.-though an Error occur- which the
Eleventh Cir Court responded to the wrong -Petition. This error, is possibly
because [three-Amended-petitions are file-[See-attach]. Wherefore, District
Court Actions-are demonstrated.***
24

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

IV.-CONT

b.(3). Sovereign Immunity:
Sovereign-Immunity, is distinct from statutory immunity, provided by its own
terms. By its own term, applies only to state officer and employees, sued in their
7 personal'capacities. Hanna v. Capital Region Menial Health Center 14 Conn.
App._26_4,268, 8.12 A.2d 95 (2002). “It is welLsettle the defense of Sovereign
Immunity can be raise on -claims brought directly against the state-OR- state
'employee’s, acting in thier official capacities, defense of Statutory Immunity:
. . can be raised for claims.brought against state employees, acting in their
- - .individual capacities.” Mercer v. Strange. 96fConn.App. ,123, 128, 899 A.2d .
■ 683"(2006).
-...... ...... ...................... .......-Sovereign-Immunity: In this case (a). Both agents, Costanzo and Brown
were employees of FI. Highway Patrol, at time of incidents, and assault.
Conduct of both agents were while clothed with the authority of the state and
authorize, and latter ratified by Florida Highway Patrol. Therefore, Costanzo,
Brown, and TFHP1 are officials responsible for enforcing Unconstitutional
Policy. Further, the conduct of FHP-et.al, ran afoul of appellants constitutional
rights. The appellant, also object to the Magistrates proposed findings and
recommendations in regard to claims for relief [against the- individual
defendants in their official capacities]. District Court- [Doc:19 state-appellanthad a trial. Appellant, never-had day in Court. Denied-Access.
The appellee-FHP claim that Appellants case, is barred by the doctrine of
sovereign immunity is not accurate because the “Orders” of the District Court,
denying equal protection of the law in violation of the fundamental privileges of
the United States Constitution, could therefore grant Sovereign Immunity, and
the Sovereign Immunity exception does not apply. “No person shall be denied
the equal protection of the law nor be subjected to segregation or discrimination
in the exercise or enjoyment of his/her civil rights because of race, sex,
disability.
The appellant, request declaratory and injunctive relief based on substantial
claims, that the state and its officers violate appellants constitutional rights.
C. Motion-Granted [Doc: 14] District Court Decision should be reversed.
CONT:
25

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021

D/E. Dismissal -With Prejudice: District Court Dismiss appellants lawsuit with
prejudice. The dismissal base on the Merits-. The Pro Se-appellant, file complaint
Post-Appeal, is dismissed, because complaint-allege- [New-Lawsuit], and that
appellant, is -without counsel-erred in filing the improper complaint-post-appeal.
[Although, appellant request counsel-that case is complex]-It was Denied. The case
should not have dismiss- Claims and procedure is outlined. The District Court
Violated the Doctrine-of the Law- of the Case. [ The Doctrine is that those
points oflaw adjudicated in a former appeal are binding in order to promote
stability of judicial decisions , and to avoid piecemeal litigation]. Strazzulla
Hendrick, 17? So.2d 1 (1965); Bakker v. First Federal Savings & Loan Ass n of ,
Hammonton, 575 So. 2d 222, 224 (1991). District Ct., did not wish to.honor-the Mandate, and Pro Se- appellant- was Ufi-represenfed unaware that [new-case]
couldn’t proceed in same case.] Not provide opportunity to amend-aforesaid.
The appellant, because case is complex, pleaded to receive Counsel, the District
Court, repeatedly denied . The [FHP] knowing the appellant is Pro Se, file- a
demurrer- a challenge to the [New-Complaint] based on Res-Judicata-Knowledge
case is not [New], from this- the case is said to be litigated, and Res-Judicata, bars
the action. This statement, is NOT Res-judicata. Res-Judicata, bar re-opening of
original dispute, and future action which were or could have been raised in the
original dispute. Res-Judicata doesn’t apply, “ because the claims-could not have
been brought-in prior, lawsuit, that District Court, denies the appellant Courtaccess.

Standard of Review: De Novo- On A Motion to Dismiss-An Informal-Pauperism
Complaint Under Rule 12(b) 6.

THE ELEVENTH CIRCUIT -ORDER- IS AN- ERROR-IN THE
INSTANT CASE:18-12956-AND 18-13227.. SEE APPENDIX-THE
APPELLANTS PETITION IS FILE 12/30/2020 THE ORDER-MANDATE OF
THE ELEVENTH CIRCUIT-IS DETERMINE [2019] TO THE WRONG
PETITION?. SEE-ATTACH. JUDGMENT-WRONG DATE*
'fc'k'k'k'k'k'k'k'k'k

26

Renee D. Bell v. Florida Highway Patrol Et.al./US Bank Natl. Assoc. Leader Mortgage, Et.al. 05/02/2021
•

CONCLUSION

'0

l
0

$

The Fourteenth Amendment, [ XIV] to the United States Constitution is at the
center of the promise of America, if your born in the United States your a citizen,
and under the law everyone in America gets equal protection. No one can take this
away without Due-Process, that’s your day in Court. Therefore, the XIV- — Amendment-basieall-ysays:“were-all equal players on the same-team”. Simple as- ------ that sounds its revolutionary, its what the American dream is made of. Therefore,
why is it that Renee Denise Bell, a U.S. citizen, denied the right. This case was
.... ■ ; upheld in the United States District Courts Middle-District of Florida a period of .
fourteen .years, even with favorable Mandate as guide for this case.-The appellant,
“have-not had” a day in Court. A public employee, a United 'States'citizen,'law abiding citizen, almost thirty-yrs., service in state government- entitled tothough cannot receive a hearing, after wrongfully accused. “Wherefore, is it that
indigent individuals, are not entitle to same constitutional protections, as others.
• To satisfy Article III, redress & [Nominal-damage] could alleviate appellant
injuries, among other equitable restitution of benefits, for past loss, and
making whole, and preventing an ongoing, future harm. Appellant, request
attorneys fees and cost, which is at initial- case onset. There is Mis-carriage
of justice in the case, that simply cannot be fixed later, or any other way.
• Reconsider, and reverse a previous ruling [Doc:69] that was the “Law” of
the case, [Re-Instate] to be honored by the District Court, that a manifest
injustice will result, from a strict adherence to the previous pronouncement
premise on an error of [ New-Case] after the case returned Post-Appeal.
• Wherefore, appellant, is before this Court, on request for review, which is
generally-granted only if case raises an issue of significant (l).public
interest, or (2).jurisprudential importance, or (3~)xonflicts with controlling
precedent. The appellants, case involve all elements. Wherefore appellant,
can only request of the Court, for review, to be heard, fairly present its
claims. Ross v. Moffitt, 615-617, (1974).
THE PETITION FOR : WRIT OF CERTIORARI SHOULD BE GRANTED.
RESPECTFULLY SUBMITTED,
RENEE DENISE BELL /$f.

Pg.27
5/ 2 / 2021.

C

DATE:

